                                                  NATIONAL SCIENCE FOUNDATION
                                                   OFFICE OF INSPECTOR GENERAL
                                                     OFFICE OF INVESTIGATIONS

                                             CLOSEOUT MEMORANDUM

Case Number: A-05060033
                                                                                 11           Page 1 of 1




        It was alleged that the subjects' IVSF proposal' included text copied from other scientists' three
        earlier NSF awards2 as well as two publications3without appropriate attribution. A review of the
        subjects' NSF proposal revealed a small amount of apparently copied text from these five source
        documents.

        We wrote to the subjects. The PI on the NSF proposal accepted full responsibility for the copied
        text. He said he was the author of the proposal. He explained that he was always diligent in
        complying with proper research conduct, but, in this case, he made some mistakes in referencing          ,
        in his proposal. The PI alsorexpressed his belief that the embedded references he included were. ,
        sufficient attribution for the verbatim text he used. The co-PI responded that he had not written . .
        theproposal. The co-PJ explained that he.aas asked to participate on the proposal because.of his -<.- ';. . .
                                                                                                            "/
                                              .                                         , , , , . $,:.2 : - f ,l
                                                                                                    I

        expertise in thi'particula?rfield.                                                              ,.(   %

                                                                                                                      ,st

                         ,;' ,   b

                                     *   <                                                         .:
          e.amount*of:actualcoiied text, verbatim and paraphrased; in the subjeots' WSkpqoposal~was .:vu ' '.'
                               , PJ +as an experienced professor and we were disturbed.By his lacB.of.:i,~'.?
        minimal: ~ o d e v e rthe                                                                         :;'-..i:jt

        knowledge about properly $tributing verbatim text. We wrote to the subjects dxplaining that -           - A



        NSF expectedlthemto carefully review and adhere to the appropriate scholarly citation praktices
        when utilizing verbatim text in their proposals and publications.

        Accordingly, this case is closed and no hrther action will be taken.




SF OIG Form 2 (1 1/02)
